CERTIFICATE OF SERVICE
(28 U. S. C. § 1746)
This is to certify that I, Ruth Ellen Reeves, have sent this petition for rehearing to
the Clerk of The United States Supreme. Court, Washington DC 20515 by priority
mail with tracking.
A copy of the same is sent to Kathryn W. Drey, at The United States Attorney's
Office, 21 East Garden Street, Suite 400, Pensacola, FL 32502; on behalf of Mark
T. Esper, Secretary of Defense, et. al / or whomever is the newly appointed
Secretary of Defense.
A copy has been sent to CEO, Mr. Mongell, Fort Walton Beach Medical Center,
1000 Mar Walt Drive, Fort Walton Beach, FL 32547.
Another copy of the same has been sent to comply with requirements set forth in
(28 U.S.D. § 1746), in regard to the inclusion of all parties listed in the proceeding
in the courts whose judgments are sought to be reviewed, to The Solicitor
General of the United States, Room 5616 — Department of Justice, at 950
Pennsylvania Avenue, NW, in Washington, DC 20530-0001.

All of the above furnished on November 11, 2020 by U.S. P.S.

Page 14 of 14

Additional material
from this filing is
available in the
Clerk's Office.

